                                               CLOSEOUT FOR M96100033




          On 7 October 1996, an NSF staff person' informed OIG of an allegation of misconduct in
                                                           the complainant, about the subject'^,^
          science he received in a letter from a re~earcher,~
          research program. The complainant alleged that the subject committed intellectual theft
          when he inappropriately used another scientist's4concept paper or submissions to NSF to
          change the direction of his research program. The complainant alleged that the subject's
          research program was funded by NSF.

          Two NSF proposals5 submitted by the scientist, and one proposal6 submitted by the subject in
          1995, are relevant to this case. The three proposals describe the same type of research on a
          specific molecule, and the scientist's proposals predate the subject's. There was, however, no
          obvious connection between the scientist's proposals and the subject. The project described
          in the subject's 1995 proposal is in an area of research that is different from that described in
          his earlier proposals.

          The scientist's concept paper predates his submissions to NSF and briefly describes the novel
          research idea that is described in greater detail in his proposals. In 1993, while in the process
          of finding a tenure-track position, the scientist provided the concept paper to academic search
          committees at institutions that invited him for an interview. One year after the scientist had
          interviewed at a particular instit~tion,~the subject was hired by it. Shortly thereafter, the
          subject submitted his 1995 proposal to NSF. We asked an NSF expert8to compare the
          scientist's proposals and 1993 concept paper to the subject's 1995 proposal. Our expert
          concluded that "there is a strong possibility that at least one of the ideas proposed by [the
          subject] in his NSF proposal had common origins with the concept paper of [the scientist] or
          in conversations with individuals who had discussed this subject with [the scientist]."


          ' The program officer is D       r         . the ~riectorf,                                   in the Directorate
          forf
            The researcher is ~r.-                                          1 - f
                                                faculty member in the Department

s aw%
    !!!%
       !                        informed of the allegation, the subject was a faculty member in the Department o
                                                                                                                a
                                                               subject is currently a member of the Department of




     -
                                                                   0th proposals were titled,
                                The first was received by NSF onn-d                    the se

           ~ro~osal-is               entitled,
     -1                     It named the subject as the sole PI. It was received by NS
      was made on the basis of this proposal on-
      'The institution
                    1-(si
       Our expert was ~r1.-rn                  the executive officer for the Division-              the Directorate for



                                                        page 1 of 2                                       M96-33
                             CLOSEOUT FOR M96100033


In response to our request for information about the allegation of intellectual theft, the
subject told us that he had the idea for this research project late in 1993 or early 1994, after
visiting the institution, but before beginning his employment there. He submitted the first
proposal describing this idea to a private foundation in spring 1994. He provided materials
and publications to document his subsequent efforts related to this project. Although these
materials demonstrated that the subject has actively worked in this area since 1994, they did
not address the alleged theft of ideas from the 1993 concept paper. In response to our request
for information about papers, projects, or conversations that existed or occurred before 1994,
the subject provided a diskette containing the file of a proposal draft that discussed one
property of the molecule that was important to both the scientist's and the subject's proposals.
The file's creation and last modified date predated the,delivery of the 1993 concept paper to
the institution.

Although the information from the subject did not disprove the allegation that he benefited
from the inappropriate use of the concept paper, his information demonstrated his active
interest in this molecule at approximately the same time that scientist provided his concept
paper to the institution. We, therefore, concluded there was insufficient substance to the
allegation of intellectual theft to proceed with additional inquiry. This case is closed and no
further action will be taken.



cc: Staff Scientist, Legal, AIG-Oversight, IG




                                     page 2 of 2
